UNITED STATES COURT OF APPEALS
c/o clerk of the court
SCOTT S. HARRIS

c

10-9-2020

CASE: 20-5084

PRISCILLA A. ELLIS
v.
UNITED STATES OF AMERICA

PETITION FOR RE-HEARING
Petitioner Priscilla A. Ellis honorable Army Veteran, respectfully
request that Honorable Justice SotoMayor reconsider her
request for a Certiorari based on the multiple Constitutional
violations enclosed in the previously submitted Petitioner to
include 1st, 5th, 6th, 8th, 14th and 4th Amendments of the
United. States Constittuion and un der Fed r App P 60(b) that
if the petitoner's relief is entitled and have not been granted
and is egregious as in Olano vs United States of America, the
petitioner is entitled to relief.

Petitioner has been and

is sitting in Prison as an innocent Victim and then entrapped
for a crime in which petitioner is innocent because the
Agents and AUSA in the Middle District of Florida did not
appreciate the Petitioner advocating for her innocense as a
victim and out of her Venue violating Article III, 2 cl. 3 of the
United States COnstituion and Civil rights violations being
a Black successful Business owner in the State of Texas not

WSBved
OCT 2 6 2020

Justice is suppose to be equally applied to all and should not
be based upon the color of their skin.

See Exhibits A, B, C, D

submitted in the original petition and see that Petitioner was
sentenced twice using the same exact verbage and enhancements
by two different judges in two differnt court rooms violating
Articles of the United States Constituion Amend 4 , 5 and 14.
Petitoner Priscilla Ellis served this country honorably in the
United States Army and was a Military SPouse for well over 25 plus
years to protect the same laws under the United States
Constitution that are being denied to her.

This is UnAmerican.

A Black woman should receive the exact same equal protections
under the laws and the United States Constitution and should
not lad someone in prison for 105 years as an innocent victim
for less then $135,000 going through their Business Corporate
account doing business as ususal evidenced by ACTUAL CITIBANK
Corporate Bank Statements for Vicken International Traders LLC
and not false compilations of statements by the corrupt FBI
Agents McCleng and AUSA Patrick Scruggs.
A Citizen of the United StAtes regardless of color should not
be subjected to such malfesance just because the government
partners with the government workers instead of satnding with the
laws under the United States Constitution which is again suppose
to protect all regardless of color.

The United States Supreme Court

denying a Writ of Certiorari to Priscilla Ellis will be denying
the Public's interest in seeing that Justice is carried out
equally, fairly and Justly.

A person of color should not have

to overly exert and fight for equal Justice, or be convicted
based on perjured testimony and circumstantial evidence.

This is the

norm in WHITE america and NO white person would have ever
been subjected to what Priscilla Ellis and her family has been
subjected to just because the United States Government in
the Middle District of FLroida saw a successful Black woman
with assets and instead of doing a proper investigation ,
prayed upon Priscilla Ellis to make her a scapegoat of a crime
as an innocent victim.

They played a video in court and the

14th amendment states that a person is entitled to confrontation
of a witenss as part of Due ppocess, well Ellis' IAC Counsel and
the government both DID not subpoena Priscilla Ellis’ daughter
in the video that met witht he FBI agent to attest to the fact
as she repeatedly told the FBI agent that her mother did NOT ask
her to pay for witness retaliation,

Priscilla Ellis

is entitled to confrontation of any witness and the Judge should
have not allowed the video to be played without both parties in
the video being there.

Also, The IAC nor the Government introduced

the FBI interview in Austin , Texas FBI Office 9

9

between FBI Agent

Willis and Victoria Ellis which again over and over, Victoria
Ellis told them that her mother did not Tell nor ask her to
pay for a Witness retaliation or Murder for Hire.
This is an extreme unusual case and a historical case of a
Honorable Army Veteran sitting in a prison with 105 years with
only circumstantial evidence becasue of Being a BLACK ewoman,
NO other reason.

For the above reasons and the reasons

inside the previously submitted petition , Priscilla Ellis
respectfully request that Honorable Justice Sotomayor please
allow a writ of Certa&rari in this case,
that Justice will and can be done.

This is the only way

CERTIFICATE OF SERVICE
Mailed from FMC-Carswell Legal Mail system on 11-18-2020
Priscilla Ellis received the documents from the Supreme
Court on 11-16-20 dated 5 Novemebr 2020

. Ellis
Honorable US Army Veteran
Pro-Se r

Case No. 20-5084'

CERTIFIED QUESTION (S)
1. When a video is played in Court, Is accused entitled to
Confrontation , per Sisth Amendment Due Process Clause?
2. Is Speedy Trial Violated when a Superseding Indictment
is issued 117 days after initial Indictment?
3. Is an accused entitled to relief under Double Jeopardy
Clause, if sentenced identically in two separate oppressive
proceedings, duplicating information utilized at both?
4. 1st, 4th, 5th, 6th, 8th and 14th Amednemnts Violations
of the United Sattes Constitution, all in one case, is this
acceptable?
5. 105 years in Prison as a victim, innocent of a crime, Is
this considered Humane or American, and Equal projection under
the Equal protection clause -of the Untied States Constitution
for all reaces, genders and origins?
6. Shouldn't there be acutal evidence of a crime and not
hear say perjured testimony to give someone 105 years in
prison which equates to 4 life sentences?
7. Are Black women equally protected under the United Sattes
Constitution?
8. Are Writs ever given to Black women who also served their
Country and are Black women equally prtected under the
United Sattes Constitution?

Resp

Priscilla A. Ellis
US Army Veteran (Honorable)
Pro-=Se1

RECEIVED
NOV 3 0 2020
©FFICE OF THE CLERK
SUPREME COURT, U.S.

Grounds for re-hearing
1. Confrontation
Process

rights under the 14th Amendment for Due

a) The District Coutt allowed a video to be played in
Open Court with supposedly Victoria Ellis and the Under Cover
FBI Agent
Whenever a video is played in court, the defendant has a right
under the confrontaiton clause to cross examine the people
int he video.
Petitoner was not allowed to do this, as the Prosecution, neither
the ineffective Counsel subpoena'd Victoria Ellis to Court, which
is the main witness that told the FBI at the interview that
her mom did nto requeste taht she pay for a crime.
See attached statement from Victoria Ellis Dated 19 September 20
The 14th Amendment provides the right to confront witnesses
THis made the proceedings fundamentally undermined and unfair
to defendant.
Kirkpatrick v. Black burn, 777 F. 2d 272, 278 (5th Cir 1985) states
the test appleid to determine whether a trial error is mad£ a
trial fundamentally unfair is whether there is a reasonable
probability that the verdict might have been different hadfi the
trial been properly doncucted.
The defendant must have the ability to confront witnesses and
present a full defense through Cross examination, see
Rice v. Quarterman, No. CIVA H-06-2051, 2008 U.S DIET LEXIS
71966, 2008 WL 4425560 at 14 (S.D. Tex Sept 30. 2008)
Moore v. Quartermen 534, F. 3d 454, 4563 (5th Cir 2008)

8M°
Ed and
-2d
859, 128 S. Ct 1029 (2008) Once 552
the U'SVideo2M>
was 169
admitted
played m open Court, The sixth amendment guarantee to confront
one s accuser s prevailed, and was violated by the fact of

£i°ES

^°'iaSmLa

br°rney

As in Danforth, the Supreme Court reversed the Judgement and

The Supreme Court should reverse the Judgement against Ellis,
Priscilla as well due to the same constitutional Violations and
the fact that she was denied Due process to confront witnesses
in the video that was allowed to be payed in open open court
in the presence of the Jury and without having a right to
confront Victoria Ellis as a person in the Video and whom have
submitted a staement atatched as exhibit J atatched.
The right of an accused to have compulsory process for obtaining
witnesses in his favor stands on no lessor footing than the other
Sixth Amendment rights that we have previously held applicable
to the sattes, said the Justices in Washington v State if Texas
388 U.s 14, 18 L. Ed 2d 1029, 87 S Ct 1920 (1967)
The Supreme Court had Occasion in In re Oliver, 333 U.S. 257,
68 S Ct. 499, 92 L. Ed. 682 (1948),
to describe what it regarded as the most basic ingredients of
due process of law.
The right to offer the testimony of witnesses and to compel their
attendance, if necessary, is in plain terms the right to present
a defense, the right to present the defendant's version of the
facts as well as the prosecutions to the jury so it may decide
where the truth lies.

Just as the accused has the right to

confront the prosecution's witnesses for the purpose of
challenging their testimony, he has a right to present his own
witnesses to establiash a defense.

Just like in Danforth, also

in Washington, the judgement of conviction was reversed as it
should also be in Ellis, Priscilla' case.
In other words, Due Process is demanded.

The Sixth Amendment

states when a video was admitted, the accused had a right to confront

Page 2

All in the Video, if used as the one in Ellis' case as one's
accuser or witness against accuser, again see Damsforth, and
P 307 Kubsch v. Neal 838 F. 3d 845 (CA 7 2016^, page 862 Chambers
was decided 14 years ago, In Holmes the Supreme Court reconfirmed
it's supreme COurt rule that the Constitution'guarantees Criminal
defendants a meaningful opportunity to present a complete defense,
see Holmes, 547 U.S at 324.
When the Eleventh Circuit Court of Appeals denied petitioner's
Appeal also based on Ground 2
Ground 2 Speedy Trial for Delay of Superseding Indictment
18 USC 3161 (c)(l)(2) and Sixth Amendment guarantees accused to
the right to a Speedy Public Trial. See United Sattes v. Lovasco
431 U.S. 703 97 S Ct 2044, 52 L. Ed 2d 752 (1977) citing United Stakfcs
States v. Marion 404 U.S. 307, 9 S Ct 455, 30 L. Ed 468 (1971)
Where there is a delay, and actual restraint imposed by an arrest
or delay of criminal charges, such as superseding Indictment
was issued over 117 days after the orginal Indictment.

Due

Process is implicated , in Lovasco 431 U.S. at 788 the court must
examine pre-indictment Speedy Trial Claims, see Marion, 404 U.S
at 313.
Court must look at the Government delay tactics or mischief was
oppressive, Id also see United Sattes v. Bishop, 629 F. 3d 462
466 (5th Cir 2010) ( citing United States v. Byrd, 31 F. 3d
1329, 1339 (5th Cir 1994)
Post Indictment claims or un constitutional delays are a
violation of the Sixth amendment and the Speedy Trial Act.
Also see US v. Palomba, 31 F. 3d 1456 (CA9 1994).

As int eh

above Cases, the same un constitutional delays took place in
Priscilla Ellis' case and should be dismissed as in Palomba, Bishop
and Lovasco.

117 days after the initial Indictbment is extreme^

oppressive, abusive and also a violation of the Equal protection
Page 3

Clause of the United States Constitution and also the Color
of law abuse, beign that Priscilla Ellis is a Black Female,
Honorable US Army Veteran.
Petitioner was deprived of Equal acess of the laws under the
United States Constitution

deliberately and willingly by the

Middle District of FLorida.
The only remedy to protect the Public's Interest and the laws
under the United States Constitution is immediate Dismissal and
Remand back tot he Middle District of FLorida.
See Doc # 73, Exhibits # 25B and 25C in case 8:16-cr-00502-JSM-TBM-l
for the Video that was played in COurt and Priscilla Ellis not
allowed to confron t the witnesses ( Victoria Ell.is)ain the
video, being denied confrontation under the Sixth and 14th
Amendments of the Untied Sattes Constitution.

To serve the

Public's interest and the integrity of the United States
Constituion, the only option is to reverse the current conviction
and remand back to the Middle District of Florida.

Priscilla Ellis
US Army Veteran
Pro-Se’
Un represented by Counself

Page 4

CERTIFICATION OF A PARTY UN REPRESENTED BY COUNSEL
I Priscilla Ellis represent that the petition for re-hearing is
presented in Good faith and not for delay.
Additional Evidence provided that was not available previously.

Priscilla A. Ellis
Pro-Se
P.0. Box 27137
Fort Worth, Texas 76127
Case No. 20-5084

CERTIFICATE OF A PARTY UN REPRESENTED BY COUNSEL
I Priscilla Ellis represent that the petition for re-hearing is
presented in Good Faith and not for delay.

Substantial grounds

and information are submitted that' was not available when the
original petition was submitted.

The enclosed Affidavit from

Victoria Ellis was not available, and Petitoner was unaware
of the Confrontation Clause pertaining to Video that was
allowed to be played in COurt during the trial.
Again, the delay not intentional and re-hearing is submitted in
Good Faith. See Doc # 73 , Exhibits # 25B and 25 C in case
8:16-cr-00502-JSM-TBM-l for Video that was played in Court.

Priscilla A. Ellis
Honorable US Army Veteran
Pro-Se*
P.0. Box 27137
Fort Worth, Texas 76127
11-16-2020
. Case No. 20-5084

RECEIVED
NOV 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

- APPENDIX
Exhibit J

Exhibit K

PriscillaA.Ellis
Pro-Se I
®S Army Veteran

Statement from Victoria Ellis (key withness
in the Video that the Court Prosecutors and
Defense Attorney Bjorn Brunvand failed to
notify and Subpoena to court

Doc # 73 from Case No. 8:16-cr~00502-JSM-TBM-l
the list shows the video Exhibit 25B and 25C
that was played during Court and Accused not
allowed to confront Witness in Video because
the Government nor the Defense attorney
subpoena’d Victoria Ellis to Court.

EXHIBIT J
SIGNED STATEMENT FROM VICTORIA ELLIS ATTESTING TO THE FACT
THAT PRISCILLA ELLIS NEVER ASKED HER TO PAY FOR A WITNESS
RETALIATION.

STATEMENT OF FACT
I, Victoria. M. Ellis Attest under the Penalties of Perjury that
October 2016

nor any other time, my Mother Priscilla Ann Ellis

did not nor have ever asked or told me to Pay for a Murder for Hire
to Anyone on ,her
behalf.
/

Victoria ,Ml Elli'i

/ff Sep 76

Printed

i

EXHIBIT K
Court Contents of Doc # 73 of the Video played in Open Court
in Case 8:16-cr-00502-JSM-TBM-l exhibits 25B and 25C

Page 8 of 22
Electronic Case Filing | U.S. District Court - Middle District of Florida
Case 8:16-cr-00502-JSM-AEP Document 212 Filed 01/22/20 Page 9 of 52 PagelD 2141

03/07/2017

65

ORAL MOTION for Declaration of Mistrial by Priscilla Ann Ellis.
(AD) (Entered: 03/07/2017)

03/07/2017

66

ORAL ORDER denying 65 Oral Motion for Declaration of Mistrial
as to Priscilla Ann Ellis (1). Signed by Judge Janies S. Moody, Jr.
on 3/7/2017. (AD) (Entered: 03/07/2017)

03/08/2017

67

Minute Entry for proceedings held before Judge James S. Moody, Jr.:
JURY TRIAL (Day 3) as to Priscilla Ann Ellis held on 3/8/2017. Court
Reporter: Melissa Pierson (AD) (Entered: 03/08/2017)

03/08/2017

68

ORAL MOTION for Judgment of Acquittal by Priscilla Ann Ellis.
(AD) (Entered: 03/08/2017)

03/08/2017

69

ORAL ORDER denying 68 Motion for Judgment of Acquittal as to
Priscilla Ann Ellis (1). Signed by Judge James S. Moody, Jr. on
3/8/2017. (AD) (Entered: 03/08/2017)

03/09/2017

70 Minute Entry for proceedings held before Judge James S. Moody, Jr.:
JURY TRIAL (Day 4) COMPLETED as to Priscilla Ann Ellis held on
3/9/2017. Court Reporter: Melissa Pierson (AD) (Entered: 03/09/2017)

03/09/2017

71

JURY VERDICT as to Priscilla Ann Ellis (1). Guilty on Counts Is, 2s,
3s, 4s, 5s. (AD) (Entered: 03/09/2017)

03/09/2017

72

COURT'S JURY INSTRUCTIONS as to Priscilla Ann Ellis. (AD)
(Entered: 03/09/2017)

03/09/2017

73

EXHIBIT LIST and Government's Exhibits 1A through 25A by USA
as to Priscilla Ann Ellis. Please Note: Government's Exhibits 1
through 25 are audio saved on CDs and Government's Exhibits
25B and 25C are audio/video saved on CDs. These exhibits are
located in the Clerk's Office located on the 2nd floor. (Attachments:
# i Government's Exhibit 1 A, # 2 Government's Exhibit 2A, # 3
Government's Exhibit 3A, # 4 Government's Exhibit 4A, # 5
Government's Exhibit 5A, # 6 Government's Exhibit 6A, # 7
Government's Exhibit 7A, # 8 Government's Exhibit 8A, # 9
Government’s Exhibit 9A, # 10 Government's Exhibit 10A, # 11
Government's Exhibit 11A, # 1_2 Government's Exhibit 12A, # 13
Government's Exhibit 13A, # 14 Government's Exhibit 14A, # 15
Government's Exhibit 15A, # 16 Government's Exhibit 16A, # 17
Government's Exhibit 17A, # JJ8 Government's Exhibit 18A, # 19
Government's Exhibit 19A, # 20 Government's Exhibit 20A, # 21
Government's Exhibit 21 A, # 22 Government's Exhibit 22A, # 23
Government's Exhibit 23A, # 24 Government's Exhibit 24A, # 25
Government's Exhibit 25A)(AD) (Entered: 03/09/2017)

03/09/2017

74 EXHIBIT LIST and Government's Exhibits 26 through 75 and 82
through 84 by USA as to Priscilla Ann Ellis. (Attachments: # i
Government's Exhibit 26, # 2 Government's Exhibit 27, # 3
Government's Exhibit 28, # 4 Government's Exhibit 29, # 5
Government's Exhibit 30, # 6 Government's Exhibit 31, # 7
Government's Exhibit 32, # 8 Government's Exhibit 33, # 9

https://ecf.flmd.circll.dcn/cgi-bin/DktRpt.pl7287983193833263-L_l_0-l

1/22/2020

